IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-1212
DAVID PEKOSKE, ACTING SECRETARY OF HOMELAND SECURITY, ET AL.,
PETITIONERS
v.
INNOVATION LAW LAB, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______________
MOTION OF THE PETITIONERS
TO HOLD THE BRIEFING SCHEDULE IN ABEYANCE AND
TO REMOVE THE CASE FROM THE FEBRUARY 2021 ARGUMENT CALENDAR
_______________
Pursuant to Rule 21.1 of the Rules of this Court, the Acting
Solicitor General, on behalf of petitioners, David Pekoske, Acting
Secretary of Homeland Security, et al., provides this notice of
recent agency action affecting this case, and respectfully moves
to hold the briefing schedule in abeyance and to remove the case
from the February 2021 argument calendar.1

Petitioners’ reply

Acting Secretary Pekoske is substituted as a party for his
predecessor in office.
See Sup. Ct. R. 35.3.
Other officialcapacity
parties
have
also
been
substituted
for
their
predecessors, and several further substitutions are likely to
1

2
brief is currently due on February 16, 2021, and the case is
currently

scheduled

authorized

to

for

represent

argument
that,

on
in

March

1,

light

2021.

of

We

the

are

current

circumstances, respondents consent to petitioners’ request to hold
the briefing schedule in abeyance and to remove the case from the
February 2021 argument calendar, without prejudice to either side
requesting to have the case recalendared should the matter not be
resolved.
1.

This case concerns the Migrant Protection Protocols

(MPP), a Department of Homeland Security (DHS) policy that, until
January 21, 2021, was applied to certain nationals of foreign
countries who had transited through Mexico from a third country to
reach the United States land border.

In promulgating MPP, DHS

invoked the authority under 8 U.S.C. 1225(b)(2)(C) to return
certain aliens temporarily to Mexico during the pendency of their
removal proceedings.2
January 28, 2019.

DHS began processing aliens under MPP on

Since then, the agency reports having returned

approximately 68,700 individuals to Mexico under MPP.
them

have

had

their

removal

proceedings

resolved;

Some of
some

have

occur in the near future as current acting officials are succeeded
by appointees.
Section 1225 refers to the Attorney General, but those
functions have been transferred to the Secretary of Homeland
Security. See Department of Homeland Sec. v. Thuraissigiam, 140
S. Ct. 1959, 1965 n.3 (2020).
2

3
withdrawn

their

applications

for

relief

or

protection

from

removal; and others’ removal proceedings are ongoing.
2.

In February 2019, respondents -- 11 aliens who were

returned to Mexico under MPP and six organizations that provide
legal services to migrants -- brought this suit in the Northern
District of California challenging MPP on various grounds and
seeking a preliminary injunction.

In April 2019, the district

court issued a preliminary injunction, without any geographical
limits, that barred DHS from “continuing to implement or expand”
MPP, and ordered that the individual plaintiffs be allowed to enter
the United States.

Pet. App. 83a; see id. at 48a-83a.

On appeal,

the court of appeals affirmed the district court’s injunction.
Id. at 1a-47a. The court of appeals stayed the injunction “insofar
as it operate[d] outside” the boundaries of the Ninth Circuit, but
otherwise denied a stay pending further proceedings.

Id. at 93a;

see id. at 84a-94a.
This Court then stayed the district court’s injunction in
full pending the timely filing and disposition of a petition for
a writ of certiorari.

140 S. Ct. 1564.

The government filed the

petition for a writ of certiorari on April 10, 2020, and the Court
granted the petition on October 19, 2020.
3.

On January 20, 2021, Acting Secretary Pekoske issued a

memorandum directing that, effective on January 21, 2021, DHS would
“suspend new enrollments in [MPP], pending further review of the

4
program.”

App., infra, 1a.

He further directed that “[a]liens

who are not already enrolled in MPP should be processed under other
existing legal authorities.”

Ibid.

When DHS announced the Acting

Secretary’s decision, it also explained that “current COVID-19
non-essential travel restrictions, both at the border and in the
region, remain in place,” and “[a]ll current [MPP] participants
should

remain

information.”

where

they

are,

pending

further

official

Department of Homeland Sec., DHS Statement on the

Suspension of New Enrollments in the Migrant Protection Protocols
Program (Jan. 20, 2021), https://go.usa.gov/xAFRE.
4.

In

light

of

these

recent

developments,

petitioners

respectfully request that the Court hold further briefing in
abeyance and remove this case from the February 2021 argument
calendar.

The government’s reply brief is currently due on

February 16, 2021, and the case is currently scheduled for argument
on March 1, 2021.

Given DHS’s suspension of new enrollments in

MPP and its current review of the program, it would be appropriate
for the Court to hold further proceedings in this case in abeyance
to allow for the completion of that review.
5.

We have consulted with counsel for respondents, who have

informed us that in light of the current circumstances, respondents
consent to petitioners’ request to hold the briefing schedule in
abeyance and to remove the case from the February 2021 argument
calendar, without prejudice to either side requesting to have the

5
case recalendared should the matter not be resolved.
motion

is

granted,

we

will

advise

the

Court

of

If this
material

developments that would support further action by the Court.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
FEBRUARY 2021

SecretaJ}'
U.S. Department of Homeland Securit,Y
Washington, DC 20528

Homeland
Security
January 20, 2021
MEMORANDUM FOR:

Troy Miller
Senior Official Performing the Duties of the Commissioner
U.S. Customs and Border Protection
Tae Johnson
Acting Director

FROM:
SUBJECT:

~~:~~!::~::~on (;d c/~st:sfEOrca~ ,~/
Actmg Secretary

{#,f/1.()l

f j;,'.ft{),-,

'tp._

Suspension of Enrollment in the Migrant Protection
Protocols Program

Effective January 21, 2021, the Department will suspend new enrollments in the Migrant
Protection Protocols (MPP), pending further review of the program. Aliens who are not already
enrolled in MPP should be processed under other existing legal authorities.

(1a)

